            U.S. ENVIRONMENTAL PROTECTION AGENCY
            OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of the
        Wastewater Treatment Facility
        Improvements Project,
        Perkins, Oklahoma

        Report No. 11-R-0214

        May 2, 2011
Report Contributors:                               Safiya Chambers
                                                   Bill Spinazzola
                                                   Leah Nikaidoh
                                                   Michael Rickey
                                                   John Trefry




Cover photo: Construction site of the wastewater treatment facility improvements project in
             Perkins, Oklahoma. (U.S. Environmental Protection Agency Office of
             Inspector General photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                                                                                                           11-R-0214
                       U.S. Environmental Protection Agency                                               May 2, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review                American Recovery and Reinvestment Act
The U.S. Environmental                Site Visit of the Wastewater Treatment Facility
Protection Agency Office of           Improvements Project, Perkins, Oklahoma
Inspector General conducts site
visits of American Recovery and       What We Found
Reinvestment Act of 2009
(Recovery Act) clean water and        We conducted an unannounced visit of the construction site of the Perkins
drinking water projects. The          Public Works Authority’s wastewater treatment facility improvements project
purpose of the visits is to confirm   in Perkins, Oklahoma, on April 19–22, 2010. We toured the project site;
compliance with selected              interviewed public works, engineering, and contractor personnel; and reviewed
Recovery Act requirements.            documentation related to Recovery Act requirements.
We selected a project located in
Perkins, Oklahoma, for review.        Based upon our site visit, we did not identify any issues that would require
                                      action by the Perkins Public Works Authority, the State of Oklahoma, or the
Background                            U.S. Environmental Protection Agency.
The Perkins Public Works
Authority received a $7,225,000
loan from the State of Oklahoma
Water Resources Board through
the state’s Clean Water State
Revolving Fund Financing
Program. The purpose of the loan
was to improve the wastewater
treatment facility in order to meet
its permitted discharge
requirements. The loan included
$2 million in Recovery Act funds
for loan forgiveness. The public
works authority was required to
repay the remaining loan amount
of $5,225,000 over 20 years.


For further information,
contact our Office of
Congressional, Public Affairs and
Management at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110502-11-R-0214.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           May 2, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          Wastewater Treatment Facility Improvements Project, Perkins, Oklahoma
          Report No. 11-R-0214


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Al Armendariz
               Regional Administrator, Region 6
               U.S. Environmental Protection Agency


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our site visit of the
City of Perkins, Oklahoma, wastewater treatment facility improvements project.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine the
city’s compliance with selected requirements of the Recovery Act pertaining to the Clean Water
State Revolving Fund program. The Oklahoma Water Resources Board approved the city’s
project and awarded a loan of $7,225,000. The loan included $2 million in Recovery Act funds
for principal forgiveness.

The estimated direct labor and travel costs for this report are $98,549.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Melissa Heist, Assistant Inspector General for Audit, at
(202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Product Line Director, at
(415) 947-4537 or adachi.robert@epa.gov.
Purpose
            The purpose of our unannounced site visit was to determine whether the Perkins
            Public Works Authority, Perkins, Oklahoma, had complied with selected
            requirements of the American Recovery and Reinvestment Act of 2009 (Recovery
            Act), P.L. 111-5, pertaining to the Clean Water State Revolving Fund program.

Background
            The Perkins Public Works Authority, a public trust with the City of Perkins,
            received a $7,225,000 loan from the State of Oklahoma Water Resources Board
            through the state’s Clean Water State Revolving Fund Financing Program. The
            purpose of the loan was to improve the wastewater treatment facility in order to
            meet its permitted discharge requirements. The loan included Recovery Act funds
            of $2 million for loan forgiveness. The public works authority must repay the
            remaining loan amount of $5,225,000 over 20 years.

            The estimated cost of the project in May 2008 was $5.2 million; $4 million of the
            cost was for construction. In May 2009, the estimated project cost increased to
            over $7.2 million, primarily due to the increase in actual construction costs to
            almost $5.9 million. As of May 24, 2010, expenditures for the project totaled
            $3.7 million.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements, we did not perform
            this assignment in accordance with generally accepted government auditing
            standards. We did not perform certain steps that would allow us to obtain
            information to assess the public works authority’s internal control and any
            previously reported audit concerns. As a result, we do not express an opinion on
            the adequacy of internal control, or compliance with all federal, state, or local
            requirements.

            We conducted our unannounced site visit from April 19–22, 2010. During our
            visit, we:

               1.	 Toured the project
               2.	 Interviewed public works authority, engineering, and contractor personnel
               3.	 Reviewed documentation maintained by the public works authority, its
                   engineer, and project contractors on the following matters:
                       a.	 Buy American requirements under Section 1605 of the Recovery
                           Act
                       b.	 Wage rate requirements under Section 1606 of the Recovery Act
                       c.	 Limits on funds and reporting requirements under sections 1604
                           and 1512 of the Recovery Act
                       d.	 Contract procurement


11-R-0214                                                                                   1
Results of Site Visit
            Based upon our site visit, we did not identify any issues that would require action
            by the Perkins Public Works Authority, the State of Oklahoma, or the U.S.
            Environmental Protection Agency. We have summarized our results in the
            following sections.

            Buy American Requirements

            We found that the public works authority’s construction contractor, Quicksilver
            Construction Company, Inc., complied with the Buy American provisions of the
            Recovery Act. Quicksilver completed a Buy American certification and obtained
            a certification from its subcontractor and suppliers. When ordering equipment and
            supplies, Quicksilver personnel stated that they specified that the item must be
            made in America. They also stated that they verified that a product was American
            made when it was delivered to the construction site. We noted that supplies stored
            at the site were stamped “made in America.”

            Wage Rate Requirements

            The construction contractor complied with Section 1606 of the Recovery Act. We
            interviewed all nine employees at the construction site on April 20, 2010. We
            compared pay rates and labor categories stated by employees during the interview
            to the contractor’s certified payroll to identify significant differences. We also
            compared the pay rates to those specified by the U.S. Department of Labor for
            heavy construction workers in Payne County, Oklahoma (the county where
            Perkins is located). All of the employees were paid at rates higher than those
            specified by the U.S. Department of Labor.

            Representatives from the Oklahoma Water Resources Board also conducted wage
            rate interviews for five contractor employees at the site on November 18, 2009,
            and compared the employees’ stated pay rates to those specified in the
            contractor’s records. No exceptions were noted.

            Limits on Funds and Reporting

            We reviewed the public works authority’s loan documentation and visited the
            construction site to ensure the public works authority was in compliance with
            section 1604 of the Recovery Act, which states that no Recovery Act funds can be
            used for any casino, other gambling establishment, aquarium, zoo, golf course, or
            swimming pool. We did not identify any issues of concern.

            We concluded that the public works authority was in compliance with its
            responsibilities under Section 1512 of the Recovery Act which requires reports on
            the use of funds and the number of jobs created or retained.


11-R-0214                                                                                     2
            The public works authority prepared reimbursement requests for eligible incurred
            costs. Each reimbursement request in our sample was supported with copies of
            checks, contractor pay estimates, and contractor and vendor invoices. The
            construction contractor prepared the pay estimates. The design engineer and the
            city manager reviewed and approved the pay estimates. In our sample of
            reimbursement requests, the total amount of each request agreed to the
            expenditures recorded in the general ledger without exception.

            Procurement Practices

            We found that the public works authority complied with its stated procurement
            practices for construction contracts. Bids were advertised publicly. The project
            was based on the approved plan and specifications, and the plan included
            Recovery Act requirements for Buy American and wage rate requirements. Six
            bidders responded to the advertisement, and the lowest bidder—Quicksilver
            Construction, Inc., Norman, Oklahoma—was selected. Quicksilver’s bid amount
            of $5,875,349 exceeded the engineer's estimated construction costs of $3,977,500.

Recommendations
            We have no recommendations.

Response and Office of Inspector General Comment
            Because we have no recommendations, we did not require or receive comments to
            the draft report. On April 7, 2011, we held an exit conference with representatives
            from the U.S. Environmental Protection Agency’s Region 6, the Oklahoma Water
            Resources Board, and the City of Perkins.




11-R-0214                                                                                     3
                                           Status of Recommendations and
                                             Potential Monetary Benefits

                                                                                                               POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                   Planned
    Rec.   Page                                                                                   Completion   Claimed    Agreed-To
    No.     No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                 No recommendations




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is undecided with resolution efforts in progress




11-R-0214                                                                                                                             4
                                                                              Appendix A

                                   Distribution
Office of the Administrator
Regional Administrator, Region 6
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Region 6
Public Affairs Officer, Region 6
Executive Director, Oklahoma Water Resources Board
Director, Oklahoma Water Resources Board, Financial Assistance Division
Mayor and Chairman of the Perkins Public Works Authority, City of Perkins, Oklahoma
City Manager, City of Perkins, Oklahoma




11-R-0214                                                                              5
